National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001



                                                    March 14, 2012


TO:               William P. McNally
                  Assistant Administrator for Procurement


FROM:             Paul K. Martin
                  Inspector General


SUBJECT: Final Memorandum on NASA’s Compliance with Provisions of the Duncan
         Hunter National Defense Authorization Act of 2009 – Management of Cost-
         Reimbursement Contracts (Report No. IG-12-014; Assignment
         No. A-12-001-00)


Section 864 of the Duncan Hunter National Defense Authorization Act of 2009 (Duncan
Hunter Act) requires agency Inspectors General to report on use of cost-reimbursement
contracts and level of compliance with related Federal procurement rules. 1 For this
review, we examined 39 contracts and 1 task order for facility management services,
engineering services, aeronautics research and development, and components for NASA’s
space vehicles, with a combined value of approximately $2.5 billion. 2 (See Enclosure 1
for details on our scope and methodology.)

Summary Finding

With the specific exceptions described below, we found that NASA generally complied
with the Duncan Hunter Act and related guidelines of the Federal Acquisition Regulation
(FAR) by properly documenting during acquisition planning the rationale, risks, and
resources for the use of other than firm-fixed-price contracts (such as cost-reimbursement
contracts); assigning contracting officer’s technical representatives (COTRs) prior to
contract award; and validating the adequacy of contractors’ accounting systems.
However, we found several instances of noncompliance, including four contract files that
did not contain written acquisition plans or documentation of all required acquisition
planning elements; two files that did not contain documentation of the rationale for the
type of contract selected; five instances in which COTRs were not appointed until after
contract award; and one case in which we were unable to determine when the COTR had

1
    Pub. L. 110-417.
2
    Throughout this memorandum, we will refer to these collectively as contracts or contract files.
                                                                                          2



been appointed. Finally, we noted five cases where NASA had not validated the
adequacy of the contractor’s accounting system.

We made three recommendations to the Agency to address the issues noted above:
(1) issue a Procurement Information Circular to all procurement personnel to disseminate
the new requirements for using cost-reimbursement contracts to all procurement
personnel; (2) revise the NASA FAR Supplement to address inconsistencies between
NASA’s guidance and the new requirements for using cost-reimbursement contracts; and
(3) update the current training curriculum to include the new requirements for the use of
cost-reimbursement contracts. The Assistant Administrator for Procurement partially
concurred with our recommendation to issue a new Procurement Information Circular,
stating that he planned to notify personnel of the new requirements through alternative
means, and concurred with our other two recommendations. We found the Agency’s
proposed actions to our recommendations to be responsive and therefore consider the
recommendations resolved.

Background

Section 864 of the Duncan Hunter Act requires the implementation of additional
regulatory guidance on the proper use and management of cost-reimbursement contracts.
Cost-reimbursement contracts provide for payment of the contractor’s allowable incurred
costs up to a ceiling amount, as established by the contract. Payments in excess of the
ceiling amount must be approved by the contracting officer. Cost-reimbursement
contracts are suitable for use only when uncertainties involved in contract performance do
not permit costs to be estimated with sufficient accuracy to enable the use of a fixed-price
contract. A firm-fixed-price contract provides for a price that is not subject to any
adjustment based on the contractor’s costs during performance of the contract, thereby
placing maximum risk upon the contractor and assigning the contractor full responsibility
for all costs as well as resulting profit or loss. As a result, firm-fixed-price contracts
provide maximum incentive for the contractor to control costs and perform effectively. In
accordance with the Duncan Hunter Act, the additional regulatory guidance was to
describe circumstances when cost-reimbursement contracts are appropriate, the
documentation required to support the selection of a cost-reimbursement contract, and the
acquisition resources necessary to award and manage such contracts.

In March 2009, the President issued a memorandum directing all Government agencies to
save $40 billion in contracting costs annually by fiscal year (FY) 2011. Among other
issues, the memorandum required agencies to develop guidance to reduce the use of cost-
reimbursement contracts. 3

In an effort to implement Section 864 and align Federal procurement law with the
Presidential memorandum, NASA, the Department of Defense, and the General Services

3
    President’s Memorandum on Government Contracting, March 4, 2009.
                                                                                                            3



Administration issued an interim rule on March 16, 2011, amending the FAR. 4 The
interim rule expands guidance on the proper use and management of other than firm-
fixed-price contracts and identifies circumstances where cost-reimbursement contracts are
appropriate. 5 The rule identifies three specific requirements related to the use of cost-
reimbursement contracts: acquisition planning, delegation of COTRs, and validation of
contractor accounting systems.

Acquisition Plans

Acquisition planning activities should integrate the efforts of personnel responsible for all
significant aspects of the acquisition. Generally, program and contracting officials share
responsibility for the majority of acquisition planning activities. Sound acquisition
planning helps ensure that NASA meets its objectives in the most effective, economical,
and timely manner. The interim FAR rule requires contracting officers to ensure written
acquisition plans with the following elements are developed for all non–firm-fixed-price
contracts:

       •   discussion of the rationale for the type of contract selected;

       •   a strategy to transition from a cost-reimbursement contract to a firm-fixed-price
           contract;

       •   identification of risks to the agency based on the contract type selected, including
           how the risks were identified, the nature of the risks, and how the risks will be
           managed and mitigated;

       •   the resources necessary to properly plan for, award, and administer the contract
           type selected; and

       •   signatures of personnel at least one level above the contracting officer who
           approve the acquisition plan.

Under the interim FAR rule, NASA’s Assistant Administrator for Procurement is
responsible for establishing criteria and thresholds at which increasingly greater detail
and formality in the acquisition planning process is required as the acquisition becomes
more complex and costly, including for cost-reimbursement and other high-risk contracts
(i.e., other than firm-fixed-price contracts) requiring a written acquisition plan. This is
addressed through NASA FAR Supplement 1807.103, which requires written acquisition
plans or documentation of procurement strategy meetings for all contracts expected to


4
    The FAR is the primary regulation used by Federal agencies to purchase supplies and services.
5
    While the interim FAR rule was effective March 16, 2011, subsequent issuance of the final FAR rule on
    March 2, 2012, resulted in additions and deletions to the interim FAR rule provisions. These changes
    were not included in our review. The final FAR rule is effective April 2, 2012.
                                                                                                         4



exceed $10 million. For contracts below that level, the contracting officer need only
document the rationale for the contract type selected. 6

COTR Delegation

COTRs are responsible for monitoring contractor performance, contract funding, and
costs incurred by the contractor. The interim FAR rule requires agencies to delegate
certified COTRs to contracts prior to contract award. 7 As the Defense Acquisition
Regulation Council and the Civilian Agency Acquisition Council noted, “greater
accountability for the management and oversight of all contracts, especially other than
firm-fixed-price contracts, can be gained and improved by requiring that properly trained
COTRs be appointed prior to contract award.”

Adequacy of Contractor’s Accounting System

Government contracts are subject to a set of rules known as Cost Accounting Standards
(Cost Standards) by which contractors estimate, accumulate, and report costs. Agency
contracting officers are responsible for validating contractors’ accounting systems and
compliance with the Cost Standards. The interim FAR rule states that agencies may only
use cost-reimbursement contracts when the contractor’s accounting system is adequate for
determining costs. 8 The rule also requires contracting officers to ensure that contractor
accounting systems remain adequate during the entire period of performance for the
contract and are able to timely develop accurate cost data. 9 The adequacy of the
contractors’ accounting systems affects the quality of the data the Government needs to
perform effective oversight of contractor performance.

NASA Generally Complied with the Interim FAR Provisions Required by the
 Duncan Hunter Act but Improvements Are Needed

We found that NASA generally complied with the interim FAR provisions required by
the Duncan Hunter Act by, in most cases, properly documenting during acquisition
planning its rationale for using other than firm-fixed-price contracts; delegating a COTR
prior to contract award; and validating the adequacy of contractor accounting systems.
However, as described below, we found several instances of noncompliance among the
40 contract files we reviewed. See Enclosure 2 for a listing of noncompliance by NASA
Center and Headquarters.



6
    FAR 16.301-2(b).
7
    Interim FAR rule 16.301-3(a)(4)(i).
8
    Interim FAR rule 16.301-3(a)(3).
9
    Federal Acquisition Regulation; Proper Use and Management of Cost Reimbursement Contracts, Federal
    Register, Vol. 76, No 51, March 16, 2011.
                                                                                              5



Incomplete Acquisition Plans. In most cases, we found the required acquisition
planning documentation in the contract files we reviewed. However, 6 of the 40 files
(15 percent) did not contain the required acquisition plans, procurement strategy meeting
documentation, or the rationale for the contract type selected.

For three of the six contracts, we were able to locate documentation to support some of
the elements required by the interim FAR rule. However, we were unable to find
documentation to support consideration of technical, cost, and schedule risks associated
with the contract type, resources required for the contract type, or a discussion of plans
for moving to a firm-fixed-price contract in future procurements. An acquisition official
explained that the acquisition planning process begins several months prior to contract
award, and for two of these procurements, the acquisition strategy was approved prior to
the effective date of the interim FAR rule. As a result, a single, written acquisition plan
containing all of these elements was never developed for the two contracts, as the
contracts were awarded shortly after the rule’s March 16, 2011, effective date.
Acquisition officials provided no explanation for elements missing from the third
contract, which was awarded in July 2011.

Although the fourth contract file contained a written acquisition plan, this plan did not
address all of the elements required by the interim FAR rule. Specifically, the plan did
not include a discussion of technical, cost, and schedule risks or how the Agency planned
to mitigate these risks. Nor did the plan include a discussion on transferring future
contract requirements to a firm-fixed-price contract. NASA acquisition officials did not
explain why these elements were missing from the acquisition plan or contract file.

For the remaining two contracts under $10 million, the interim FAR rule requires a
written rationale for using other than a firm-fixed-price contract. 10 In both cases, we were
unable to locate this documentation in the contract file. One acquisition official thought
the memorandum documenting the rationale for selection of the cost-reimbursement
contract had been prepared, but she was unable to locate the document. In the other case,
an acquisition official indicated that the contract was a “bridge” contract and she believed
the rationale was not required. In this case, a bridge contract was used to continue the
performance and requirements on the existing procurement until the follow-on contract is
awarded. To ensure continuity of services, the bridge contract uses the same contract
type as the previous contract.

As noted above, we identified six instances where the Agency was not compliant with the
acquisition planning requirements of the interim FAR rule. In two of these instances, the
issues we identified are attributable to the close proximity of contract award to the
effective date of the interim FAR rule. However, in the remaining four cases, acquisition
officials did not award the contracts until several months after the interim FAR rule took
effect, therefore it is unclear why these procurements did not comply with the rule.


10
     FAR 16.103(d)(1).
                                                                                                   6



Ultimately, contracting officers are responsible for ensuring compliance with the FAR
throughout the procurement process and maintaining proper documentation in the
contract files to support this compliance. This memorandum offers several
recommendations to assist the Agency in achieving full compliance in future
procurements.

No Evidence of COTR Delegation Prior to Contract Award. We found that in most
cases NASA had identified COTRs for the contracts we reviewed prior to contract award.
However, 6 of the 40 contract files (15 percent) did not contain evidence of COTR
delegation prior to contract award, as required by the interim FAR rule. 11 When notified
of the omission, Agency officials provided four of the missing COTR delegation letters.
However, the documents were signed and dated by the contracting officers and COTRs
near the time of our inquiries, indicating the COTRs were not delegated prior to contract
award. In another case, while the COTR delegation letter was dated 2 weeks after the
contract was awarded, it was not available at the time of our review and did not make it
into the contract file until nearly 3 months later. Acquisition officials explained that the
COTR was traveling and unable to return the executed document to the contracting
officer in a timely manner. In the final case, acquisition officials located the delegation
letter for a newly designated COTR, but could not produce a signed delegation letter for
the COTR originally appointed at the time of contract award.

The NASA Office of Inspector General (OIG) has previously noted NASA’s difficulty in
timely appointing properly certified COTRs and has made recommendations for
improvement in this area. 12 In response, the Agency agreed to issue a written policy
reminder to all contracting officers to follow existing guidance on the appointment and
removal of COTRs who fail to meet training, certification, and educational requirements
to ensure they do not perform oversight on NASA contracts until these requirements are
met. Without written delegation of a certified COTR prior to contract award, NASA runs
the risk that proper oversight, technical guidance, and contract administration may not
occur during the early stages of contractor performance.

Adequacy of Contractor’s Accounting System Not Validated. As previously stated,
the interim FAR rule requires contracting officers to ensure that contractor accounting
systems are adequate prior to award and remain adequate during the entire period of
contract performance. In most cases, we found that contracting officers validated the
adequacy of contractor accounting systems as required by the interim FAR rule.
However, in 5 of the 40 contracts reviewed (13 percent) we found no evidence of the
required validation.




11
     FAR 16.301-3(a)(4)(i).
12
     “NASA’s Management of Small Business Innovation Research and Small Business Technology Transfer
     Contracts Funded by the Recovery Act” (IG-12-009, February 2, 2012).
                                                                                         7



In one of the five cases, acquisition officials indicated that they contacted the Defense
Contract Audit Agency (DCAA) by phone for verification of the adequacy of the
contractor’s accounting system. However, there was no documentation from DCAA in
the contract file to support this assertion. Acquisition officials stated that because DCAA
could not immediately perform the audits due to the organization’s existing backlog,
NASA acquisition officials decided they would request a formal audit prior to exercising
any contract options. In another case, the contractor’s accounting system was found to be
adequate by a 2001 audit by DCAA; however, a 2009 audit report indicated the
contractor’s overall accounting, internal control, and billing systems were inadequate. A
June 2011 interim report by DCAA indicated the inadequacies remained but it appeared
the contractor’s corrective actions were appropriate to address the deficiencies. However,
the final report showing the updated status of the contractor’s accounting system was not
provided by the conclusion of our fieldwork. According to NASA acquisition officials,
DCAA canceled the follow-up audit because the contractor had since implemented a new
billing system; however, the adequacy of the new billing system had not been evaluated
by the completion of this review. For the remaining three cases, NASA acquisition
officials were unable to explain why documentation to support validation of the
contractor accounting systems was not in the contract files.

Ultimately, assessing and validating a contractor’s accounting system is the contracting
officer’s responsibility. Occasionally, a contracting officer may delegate the task to the
Defense Contract Management Agency or DCAA, but that delegation does not relieve the
contracting officer of responsibility for ensuring validation occurred and documenting the
validation in the contract file. Contracting officers’ failure to validate contractor
accounting systems leaves NASA susceptible to the risk of relying on inaccurate or
unreliable contractor data.

Recommendations, Management’s Response, and Evaluation of
 Management’s Response

In order to address the issues identified and ensure compliance with FAR provisions
required by the Duncan Hunter Act, we made the following recommendations:

Recommendation 1. The Assistant Administrator for Procurement should issue a new
Procurement Information Circular to all NASA acquisition personnel that identifies the
expanded regulatory requirements on the proper use and management of other than firm-
fixed-price contracts.

   Management’s Response. The Assistant Administrator partially concurred, stating
   that although he agrees acquisition personnel should be advised of the expanded
   regulatory requirements of the Duncan Hunter Act, he does not believe that a
   Procurement Information Circular is the most effective way to disseminate this
   information. Instead, he said he plans to advise the Procurement Officer at each
   Center of the expanded regulatory requirements within 60 days of issuance of the
                                                                                            8



   final FAR rule incorporating the expanded requirements. (See Enclosure 3 for the
   Assistant Administrator’s full response.)

   Evaluation of Management’s Response. We consider the Assistant Administrator’s
   proposed corrective action to be responsive to the intent of our recommendation.
   Therefore, the recommendation is resolved and will be closed upon completion and
   verification of the action.

Recommendation 2. The Assistant Administrator for Procurement should review and
update the NASA FAR Supplement to address inconsistencies between current Agency
requirements for proper use and management of other than firm-fixed-price contracts and
the expanded FAR requirements when finalized.

   Management’s Response. The Assistant Administrator concurred, stating that
   within 90 days of issuance of the final FAR rule the Agency will assess whether any
   inconsistencies exist between current NASA requirements for proper use and
   management of other than firm-fixed-price contracts and the expanded FAR
   requirements. Upon completion of this assessment, any necessary changes to the
   NASA FAR Supplement will be made.

   Evaluation of Management’s Response. Management’s planned action is
   responsive to the recommendation. Therefore, the recommendation is resolved and
   will be closed upon completion and verification of the action.

Recommendation 3. The Assistant Administrator for Procurement should revise the
current training curriculum offered to contracting officers, contract specialists, and other
acquisition personnel to include the requirements of the interim FAR rule and ensure this
training is available to all NASA staff responsible for awarding cost-reimbursement
contracts at the NASA Centers and NASA Headquarters.

   Management’s Response. The Assistant Administrator concurred, stating that the
   Agency will add the additional requirements of the Duncan Hunter Act to the Office
   of Procurement cost/price analysis courses. NASA anticipates the updated course
   material will be available this fiscal year, for the 3-day basic cost/price analysis course
   and the 2-day advanced cost/price analysis course, both scheduled for April and July.

   Evaluation of Management’s Response. Management’s planned action is
   responsive to the recommendation. Therefore, the recommendation is resolved and
   will be closed upon completion and verification of the action.

We appreciate the courtesies extended during our review. If you have any questions or
need additional information, please contact Laura Nicolosi, Mission Support Director,
Office of Audits, at 202-358-2562.

3 Enclosures
                                                      9



cc:   Michael Wholley
      NASA General Counsel

      Andrew O’Rourke
      NASA Procurement Analyst

      Simon P. Worden
      Director, Ames Research Center

      Ray Lugo
      Director, Glenn Research Center

      Chris Scolese
      Director, Goddard Space Flight Center

      Michael L. Coats
      Director, Johnson Space Center

      Lesa B. Roe
      Director, Langley Research Center

      Gene Goldman
      Acting Director, Marshall Space Flight Center
                                      Scope and Methodology
We performed the review from October 2011 through February 2012 in accordance with
the Council of the Inspectors General on Integrity and Efficiency Quality Standards for
Inspection and Evaluation. Those standards require that we present factual data
accurately, fairly, and objectively and present findings, conclusions, and
recommendations in a persuasive manner. We believe we have accurately, fairly, and
objectively presented factual data and present our findings, conclusions, and
recommendations in a persuasive manner.

Section 864 of the Duncan Hunter Act requires OIGs to review their agencies’ use of
cost-reimbursement contracts for compliance with the newly implemented FAR
provisions required by the Act. The OIGs must also satisfy congressional reporting
requirements that involve preparing and reporting the review results in their March 2012
Semiannual Report to Congress.

The scope of our review covered the parts of the FAR that were revised in response to the
Duncan Hunter Act. 13 Specifically, the team reviewed the following portions of the FAR
for compliance with guidance promulgated under the Duncan Hunter Act for cost-
reimbursement, time and materials, and labor hours contracts:

       •   1.602-2(d)(e) and 7.104(e): written evidence the contracting officer has
           designated and authorized a contracting officer’s representative (COR) on all
           contracts and orders that are other than firm-fixed-price. The contracting officer
           shall verify the COR or COTR is a Government employee, certified, and up to
           date on training requirements in accordance with the Office of Management and
           Budget guidance. Additionally, the contracting officer will ensure the COR or
           COTR has been delegated the appropriate responsibility and will identify any
           limitations on the authority of the COR/COTR.

       •   7.103(d), (f) and (j): evidence that acquisition planners documented the files to
           support the selection of the contract type in accordance with the following
           paragraph from Subpart 16.1: the statement of work is closely aligned with the
           performance outcomes and cost estimates, and documented approval and
           signature from the appropriate acquisition official at least one level above the
           contracting officer.

       •   7.105(b)(5)(iv): documentation of the strategy to transition from other than firm-
           fixed-price contracts to firm-fixed-price contracts.

       •   16.103: additional documentation when other than a firm-fixed-price contract
           type is selected.


13
     We did not review the technical amendments made to FAR Parts 2, 32, and 50 as a result of the interim
     FAR rule changes.

                                                                                                     Enclosure 1
                                                                                                     Page 1 of 3
       •   16.104: contracting officer’s consideration of combining contract types if the
           entire contract cannot be firm-fixed-price.

       •   16.301-2: circumstances in which to use cost-reimbursement, time and materials,
           and labor hours contracts, and the documented rationale for selecting an other than
           firm-fixed-price contract type.

       •   16.301-3: when a cost-reimbursement contract may be used, documentation that
           the contracting officer considered all factors per FAR 16.104, and documentation
           that the contracting officer has ensured that adequate Government resources are
           available to award and manage other than firm-fixed-price contract awards.

       •   42.302(a)(12): documentation that the contracting officer determined the
           continuing adequacy of the contractor’s accounting system during the entire
           period of contract performance.

To accomplish the overall review objective, we selected all new cost-reimbursement,
time and materials, and labor hours contracts with an individual contract value greater
than $1 million awarded between March 16 and September 30, 2011. We identified 39
contracts and 1 task order for review, with a combined value of approximately
$2.5 billion, out of approximately 382 contracts and task orders. 14 The awarded contracts
support multiple program offices across six NASA Centers and NASA Headquarters.

The contracts we reviewed had been awarded by NASA Headquarters, Ames Research
Center, Glenn Research Center, Goddard Space Flight Center, Johnson Space Center,
Langley Research Center, or Marshall Space Flight Center. Our review process included
verification of documentation contained in the contract files and interviewing appropriate
acquisition personnel at Headquarters and the NASA Centers.

Use of Computer-Processed Data. We used data from the Federal Procurement Data
System (FPDS) to perform this review. We used FPDS to identify all cost-
reimbursement contracts and task orders awarded by NASA between March 16 and
September 30, 2011. We also used the data to determine the date the contract or task
order was awarded. To a limited extent, we compared the data obtained through FPDS to
documentation in NASA’s contract files. We determined that the computer-processed
data obtained from FPDS was sufficiently reliable for the purposes of our review.

Additional Criteria

In addition to the FAR references noted earlier, we reviewed NASA FAR Supplement
Subpart 1807.1, “Acquisition Planning,” which provides updated guidance to the Agency
on acquisition plans.


14
     We reviewed task orders over $1 million whose base contract was awarded between March 16 and
     September 30, 2011.

                                                                                                    Enclosure 1
                                                                                                    Page 2 of 3
We also reviewed the procurement policies specific to the following NASA Centers:

   •   Goddard Space Flight Center, Procurement Circular 01-03, Revision 2,
       “Procurement Strategy Meetings and Written Acquisition Plans,” September 23,
       2011 (NASA Headquarters’ procurements are managed by Goddard Space Flight
       Center, so this circular would also apply to contracts awarded by Headquarters).

   •   Langley Research Center, “Prepare Pre-solicitation Document Policy,”
       Revision Q, October 28, 2010.

   •   Glenn Research Center, “Work Instruction, Acquisition Planning and
       Procurement Strategy Meetings,” GLWI-CH-5107.1, May 2007.

Review of Internal Controls

We reviewed internal controls related to compliance with the interim FAR rule, including
FAR Parts 1, 7, 16, and 42; the Duncan Hunter Act; and the NASA FAR Supplement.
Generally, we concluded that the internal controls related to compliance with the above
requirements were adequate; however, some improvements are necessary, as discussed in
this memorandum.

Prior Coverage

During the last 5 years, the NASA Office of Inspector General has not issued any reports
related to NASA’s compliance with the requirements of the Duncan Hunter Act. The
Government Accountability Office (GAO) issued one report related to the subject of this
report. Unrestricted reports can be accessed at http://www.gao.gov.

“Contract Management: Extent of Federal Spending under Cost-Reimbursement
Contracts Unclear and Key Controls Not Always Used” (GAO-09-921, September 30,
2009)




                                                                                   Enclosure 1
                                                                                   Page 3 of 3
                    Issues of Noncompliance by Location

                                         Duncan Hunter Requirement Area
                        Acquisition              COTR            Contractor Accounting
Location                 Planning               Delegation        System Validation
Headquarters                  1                     2                        1
ARC                           1                     0                        1
GRC                           0                     1                        1
GSFC                          2                     2                        1
JSC                           2                     0                        0
LaRC                          0                     1                        0
MSFC                          0                     0                        1
  ARC      Ames Research Center                   JSC    Johnson Space Center
  GRC      Glenn Research Center                 LaRC    Langley Research Center
 GSFC      Goddard Space Flight Center           MSFC    Marshall Space Flight Center




                                                                                   Enclosure 2
                                                                                   Page 1 of 1
Management’s Comments




                        Enclosure 3
                        Page 1 of 2
Enclosure 3
Page 2 of 2
